OIG Audit Report GR-50-09-004

Office of Justice Programs Bureau of Justice Assistance Grant Awarded to the Kane County Drug Rehabilitation Court, Kane County, Illinois
Audit Report GR-50-09-004
July 2009
Office of the Inspector General


Executive Summary


The Office of the Inspector General (OIG), Audit Division,  has completed an audit of the Kane County Drug Rehabilitation Court (KCDRC),  Grant Number 2003‑DD‑BX‑1033, in the amount of $940,560 awarded by the  Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA).1    The goals of this grant were to hire  additional staff to expand the ability to monitor and supervise cases assigned  to the existing KCDRC program, provide administrative support to the KCDRC, and  administer drug testing.  The purpose of  the grant was to fund salary and fringe benefit costs of certain drug court  employees and to pay contractual drug testers to perform drug testing of  defendants admitted into the drug rehabilitation program.  Additionally, the grant funded the purchase  of two vehicles for the KCDRC staff to conduct home and employment site visits. 
 The KCDRC is a  component of the Illinois 16th Judicial Circuit Court in St.  Charles, Illinois.  The KCDRC was established in August 2000  to provide an alternative to incarceration for defendants whose behavior is  linked to the abuse of drugs.  The court  is specifically for repeat felony offenders who are caught in a cycle of drug  addiction, which spins off to criminal activity.  To be admitted into the drug rehabilitation  program, defenders must plead guilty to the charge before the court.  Participation is voluntary and there is a minimum  2-year commitment.  Defendants accepted  in the program are required to have weekly court appearances with treatment  providers and drug court staff, and they are drug tested three times per week  at one of four sites maintained by the KCDRC.
The purpose of  this audit was to determine whether reimbursements claimed for costs under the  grant were allowable, supported, and in accordance with applicable laws,  regulations, guidelines, and terms and conditions of  the grant; and to determine program performance and accomplishments.  The objective of our audit was to review  performance in the following areas:   (1) internal control environment; (2) drawdowns;  (3) grant expenditures, including personnel costs and indirect costs;  (4) budget management and control; (5) matching cost requirements;  (6) property management; (7) program income; (8) financial  status and progress reports; (9) grant requirements; (10) program  performance and accomplishments; and (11) monitoring of contractors and  subgrantees.  We determined that indirect  costs, matching costs, program income, and monitoring of subgrantees were not  applicable to this grant.  As shown in  Table 1, KCDRC was awarded a total of $940,560.
TABLE 1.  KANE  COUNTY DRUG REHABILITATION COURT GRANT


Grant Award
AwardStart Date
AwardEnd Date
Award Total


2003-DD-BX-1033 
09/01/2003 
08/30/2004 
$ 248,375 


Supplement 1 
09/01/2003 
08/31/2006 
494,739 


Supplement 2 
09/01/2003 
08/31/2008 
197,446 


Total:
$ 940,560


Source: Office of Justice Programs
We found that  the grantee’s budget management and control, performance against grant  objectives, and its monitoring of contractors were generally satisfactory.  However, we identified that Kane County  failed to maintain accounting records segregated from other revenues collected  by the KCDRC, had several weaknesses in grant drawdowns and grant expenditures,  and had discrepancies in financial reporting.   In addition, two vehicles purchased with grant funds were not documented  as federally funded in the property records.   As a result, we identified $4,812 in dollar-related findings:2 

The       OJP Financial Guide states that the grantee is required to establish and       maintain accounting systems and financial records to accurately account       for funds awarded to them.  However,       the KCDRC account assigned to the DOJ grant included County revenue and       investment income.  As a result, we       could not identify which expenditures were reimbursed by OJP. 
The       OJP Financial Guide states recipients should time drawdown requests to       ensure that federal cash on hand is the minimum needed to pay for actual       or anticipated costs within 10 days.        However, the KCDRC drew down excess funds without expending them within       the required 10-day timeframe.
The       KCDRC charged the grant for unallowable personal and mileage expenses and       for unapproved training, travel, and conference fees.  In addition, Kane County did not fully       rectify a duplicate payment that it had identified.  In total, the KCDRC charged a total of $4,812       in unapproved and unallowable costs to the grant; therefore, we questioned       these costs. 
Two       vehicles purchased with grant funds were not recognized as federally       funded properties in the grantee’s fixed asset records.
The KCDRC FSR’s did not accurately report  financial activity within the period.  

These items are  discussed in detail in the Findings and Recommendations section of the  report.  Our audit objectives, scope, and  methodology are discussed in Appendix I.


 

Footnotes

The KCDRC was awarded a grant and two  supplements with the same goals and objectives.   The project start dates of both supplements reverted to the original  grant’s project start date.  As a result,  we reviewed the grant as one award.
The Inspector General Act of 1978, as  amended, contains our reporting requirements for questioned costs and funds put  to better use.  However, not all findings  are dollar-related.  See Appendix II for  a breakdown of our dollar-related findings and for a definition of questioned  costs.





 




Return to OIG Home Page